 Postal Service Pricing Policies after PAEA




                         February 8, 2010




Sponsored by U.S. Postal Service Office of Inspector General
             Risk Analysis Research Center (RARC)
             Report Number: RARC-WP-10-002
Risk Analysis Research Center (RARC)                                                            February 8, 2010
Postal Service Pricing Policies after PAEA                                                     RARC-WP-10-002



                 Postal Service Pricing Policies after PAEA


                                        Executive Summary

The Postal Accountability and Enhancement Act of 2006 (PAEA) fundamentally altered
the U.S. Postal Service by introducing enhanced pricing flexibility, profit incentives, and
potential antitrust liability. PAEA also mandated a change from breakeven, cost-of-
service regulation where revenues must equal costs over time to price cap regulation.
The Postal Service can now introduce new or modify existing prices for market-
dominant products as long as the price increase does not exceed the growth in the
consumer price index.

The combination of pricing flexibility and profit retention is a hallmark of PAEA, and it
ushered in a new landscape of economic incentives facing the Postal Service. The
consequences and impact of these incentives remain to be seen; hence, the United
States Postal Service, Office of Inspector General (OIG) retained John C. Panzar,
Ph.D., to perform foundational research on the economic incentives facing the Postal
Service.1 The research offered key insights to understanding Postal Service pricing and
marketing initiatives under price cap regulation, and discussed potential antitrust
implications.

Dr. Panzar documented his research in the attached report entitled “Postal Service
Pricing Policies after PAEA.” The research analyzed pricing initiative implications for
market dominant products under price cap regulation and offered the following findings
in three areas – worksharing discounts, quantity discounts, and channel-based
discounts.

        1. Worksharing Discounts – the Postal Service faces a strong
           economic incentive to set worksharing discounts below the costs
           those activities avoid. Although permissible under PAEA, this would
           break with long-standing efficiency arguments and invite antitrust
           scrutiny because it would exclude more efficient providers of
           worksharing activities. Setting worksharing discounts below the
           costs avoided would also be controversial because most mail is
           workshared.




1
 Dr. Panzar is Professor of Economics at the University of Auckland, New Zealand and is a Louis W. Menk
Professor Emeritus at Northwestern University. Dr. Panzar has provided consulting services to Germany’s
Deutsche Post, England’s Royal Mail, U.S. Postal Regulatory Commission and the U.S. Postal Service.
                                                        i
Risk Analysis Research Center (RARC)                                            February 8, 2010
Postal Service Pricing Policies after PAEA                                     RARC-WP-10-002


        2. Quantity Discounts – these types of discounts have an important
           role under PAEA. There are generally two applicable areas – one
           where customers do not compete with each other and their demand
           for postal products is independent and one where customers are
           competitors with each other and their demand for postal products is
           interdependent.

            a. Independent demands – a classic “win-win” situation, the Postal
               Service and those customers offered quantity discounts are
               better off while other customers are no worse off. Notably, the
               price cap automatically protects other customers, so there is no
               need for heavy regulation. Although there are likely finite
               opportunities, the Postal Service faces a strong incentive to
               enter into as many independent demand quantity discounts as
               possible.

                An example of this situation would be quantity discounts offered
                to customers specializing in advertising using letter mail and
                customers specializing in catalogs. Another would be discounts
                offered to bill presentment mailers and discounts offered to
                advertisers.

            b. Interdependent demands – the quantity discounts benefit the
               parties to the agreement at least partially at the expense of
               other customers. The price cap is not sufficient to protect
               competitors of favored customers; hence, disadvantaged
               customers may seek relief under antitrust provisions.
               Regardless, the Postal Service faces an economic incentive to
               negotiate quantity discount arrangements with individual
               customers.

                An example of this situation would be quantity discounts offered
                to intra mail class competitors such as advertisers.

        3. Channel-Based Discounts – PAEA allows cost-based discounts
           based on alternative distribution channels such as window and
           internet transactions. These types of discounts are likely to be
           attractive to the Postal Service. The economic incentive is stronger
           when (i) the channel is new and previously unavailable; (ii) the
           channel exhibits very different costs; or (iii) the total demand for the
           existing and alternative channels is inelastic. Generally, the Postal
           Service is better off the more it discriminates its prices based on
           costs, but this is likely to produce both winners and losers among
           customers.



                                               ii
                     Postal Service Pricing Policies after PAEA


                                                      by

                                          John C. Panzar*
                                              December 2009




1. INTRODUCTION AND SUMMARY

           The primary goal of this paper is to conduct a theoretical analysis of the impact of

the Postal Accountability and Enhancement Act of 2006 (PAEA) on the pricing

incentives facing the United States Postal Service. 2 In addition, I devote considerable




*
Professor of Economics, University of Auckland and Louis W. Menk Professor Emeritus, Northwestern
University. This paper was commissioned by the Office of the Inspector General of the United States
Postal Service. The views expressed are those of the author and do not necessarily reflect those of either
the Office of the Inspector General or the United States Postal Service. I would like to thank, without
implicating, Lawrence Buc, Robert Cohen, Felicia Hawkins, Robert Mitchell, Matthew Robinson, John
Waller, and David Yacobucci for helpful comments and suggestions.

2
    See Bradley, et. al. (2008) for a more extensive discussion of the provisions of PAEA. They also present
the results of a calibration model that attempts to quantify the likely impact of the legislation of Postal
Service prices.




                                                       1
attention to the antitrust issues that may arise should the Postal Service follow such

incentives.3


           The basic framework used in this study is the analysis of the behavior of a profit

seeking enterprise. 4 However, the objective is not to attempt to suggest new profit

making pricing innovations for the Postal Service (or to offer advice to its Marketing

Department). Rather, I seek to understand the market implications of giving the Postal

Service enhanced pricing flexibility and profit incentives. One of the primary goals of

PAEA was to enhance the incentives for the Postal Service to operate efficiently and

profitably. The mandated change from the cost of service regulation instituted by the

Postal Reform Act (PRA) to PAEA “price cap” regulation has been subsequently

implemented through various decisions of the Postal Regulatory Commission (PRC). Of

course, the mere ability of the Postal Service to actively pursue profit opportunities



3
    For further discussions of the interaction between regulatory and antitrust policy in the postal sector, see
Panzar (2008). Portions of the model used in Section 2 appear there.

4
    There is considerable debate in the literature concerning the appropriate objective function to use when
modeling the behavior of the Postal Service and other public enterprises. Several authors have suggested
that revenue maximization may be a more realistic hypothesis than profit maximization for such
organizations. See, for example, Bradley et. al. (2004), (2008) and Sappington and Sidak (2003a), (2003b).
In general, the choice of objective function can have both positive (descriptive) and/or normative (welfare)
implications for the results of the model. However, these issues are of lesser concern in the post PAEA
environment because (i) PAEA allows the Postal Service to retain some profits, making the profit-seeking
assumption more plausible and (ii) PAEA price cap regulation mitigates the theoretical problems that may
arise under the assumption of revenue maximization.




                                                         2
through its pricing policies does not automatically convert it into a profit maximizing

enterprise. However, PAEA does allow the Postal Service limited ability to retain the

profits resulting from productivity and pricing innovations it may undertake.


           Pricing flexibility and potential antitrust liability go hand in hand. PAEA granted

the Postal Service limited pricing flexibility through the move to price cap regulation, but

also subjected it to antitrust scrutiny for the first time in its history. Indeed, pricing

flexibility gives the Postal Service the ability to directly impact customers and

competitors in ways that may give rise to antitrust liability. While its pricing flexibility is

limited by PRC decisions, it is far less likely to be able to claim to damaged competitors

that “the Commission made me do it.” Thus, I will devote considerable attention to

potential antitrust implications of post PAEA Postal Service pricing innovations. Of

course, under the Supreme Courts decision in Trinko,5 PRC actions may also impact the

extent of antitrust liability faced by the Postal Service.


           Section 2 presents an analysis of a simple model of worksharing incentives under

PAEA price cap regulation. Starting from an initial situation in which the worksharing

discount is set equal to avoided cost, the pricing flexibility permitted by price cap

regulation gives the Postal Service the incentive to decrease both the worksharing



5
    Verizon Communications, Inc. v. Law Offices of Curtis V. Trinko, LLP 540 U.S. 398 (2004). See Brennan
(2008) for a detailed discussion and critique of the Trinko decision for the future of antitrust and regulatory
policies in network industries.




                                                       3
discount and the basic rate. Because the resulting worksharing discount would be below

avoided cost, efficient competitors would be excluded from the upstream market for

sorting services. Such exclusion may give rise to antitrust concerns, even though the

resulting changes may tend to increase total surplus.


       Section 3 analyzes quantity discounts in a post PAEA environment. After

reviewing the classic, “win-win” argument in support of negotiated quantity discounts, I

explain how PAEA price cap regulation enhances their desirability by automatically

preventing increases in the level of the base price. However, I also explain the problems

that can arise with quantity discounts in situations in which customer demands are

interdependent – as is typically the case when customers are competitors in the same final

product industry. In that case, small users may be damaged by the mutually beneficial

agreements that may be negotiated between large users and the Postal Service.

Moreover, these damages can result even when price cap regulation prevents an increase

in the basic rate. Such damaged competitors may claim to be victims of secondary line

injury under the Robinson Patman Act. Nonetheless, analysis shows that, again, total

surplus increases as a result of the introduction of such discounts.


       Section 4 turns to the analysis of channel based discounts, situations in which

firms may find it profitable to introduce different prices based upon the distribution

channel used to sell or deliver a product. For example, it may be cheaper to sell postage

to mailers through meters or over the Internet rather than at post office windows. Under




                                              4
what circumstances will the flexibility provided by PAEA price cap regulation provide

incentives for the Postal Service to introduce discounts for mailers that choose to utilize

such alternative distribution channels? While there is no definitive answer to this

question, 6 the analysis produces significant insights. First, the Postal Service will always

have an incentive to introduce a small discount for new distribution channels that reduce

its costs. Second, the greater the cost savings offered by the distribution channel, the

more likely it will be profitable to introduce a small discount. Finally, discounts are more

likely to be optimal if their introduction serves primarily to reallocate existing demand

between channels rather than stimulating new demand.


           Section 5 offers some concluding thoughts. The Appendix provides additional

derivations and results beyond those presented in the text. In particular, the welfare

effects of the three types of discounts are analyzed and discussed.


2. WORKSHARING

           The ubiquitous delivery network of the incumbent is a tempting target for

competitors, entrants, and regulators.7 A variety of empirical studies have shown that




6
    Ultimately, the issue comes down to the profitability of introducing Third Degree price discrimination.
As such, the matter turns on the relationship between price elasticities of demand.

7
    Competitors view the economies of scope resulting from the Postal Service’s extensive network for
monopoly products as giving rise to unfair advantage for its competitive products. For a clear statement of




                                                       5
incumbents’ delivery networks exhibit significant economies of scale. 8 Yet, they do not

exhibit the substantial sunk costs that characterize the “monopoly bottlenecks” of other

network industries such as telecommunications and electric power.

           From the regulatory point of view, any activity which exhibits economies of scale

has the potential to be efficiently shared with competitors. It does not really matter if the

productive resource is “impossible or impractical” to reproduce. If the transactions costs

from unbundling are sufficiently low, a policy of compulsory access can be used to open

significant portions of the value chain to competition. This argument has little

connection with the considerations associated with the typical essential facilities

deliberation.

           It is perhaps possible to reconcile the regulatory and antitrust views of mandated

access in a postal sector, in which the incumbent has a statutory delivery monopoly for at

least some products. In that case, one could take the view that the illegality of replicating

the incumbent’s network plays the same role as technical impossibility. In such

circumstances, a regulatory policy of mandated downstream access at regulated rates has

been demonstrated to have a significant impact on increasing upstream competition and




this position, see US Federal Trade Commission, Postal Service Study, Project No. PO71200, Declaration
of J. Gregory Sidak (2007).

8
    For example, see Cazals, De Rycke, Florens, and Rouzard (1997); Cazals, Florens, and Soteri (2005); and
Cohen and Chu (1997).




                                                      6
overall cost efficiency in the postal sector.9 However, this harmony begins to be strained

once the delivery market is fully opened to competition. In the absence of significant

sunk costs, and ample direct and indirect evidence that it is possible for entrant’s to create

duplicate delivery networks, it is difficult to defend a policy of mandated access on the

basis of an essential facilities argument. 10

           Nonetheless, it seems likely that regulators will accede to the requests of end-to-

end competitors that forced access be granted. The important question, as always, will be

determining the terms of such access. Once such terms have been established, the

competition authority – even one that had no interest in compelling access itself on

essential facilities grounds – should find itself interested in the pricing of access. This is

so because the spread between the access price and the retail price affects the ability of

“equally efficient” competitors to compete with the incumbent in the market for the

upstream component.

           In particular, such exclusion will be a problem whenever the regulatory process

leads to the establishment of access prices that exceed those that would result from the

application of the Efficient Component Pricing Rule (ECPR), i.e. worksharing discounts

that are less than the upstream costs saved by the incumbent.




9
    See, for example, the evidence presented in Cohen, Ferguson, Waller and Xenakis (2002) and Cohen,
Robinson, Waller and Xenakis (2006).

10
 See Panzar (2002) and de Bijl et al. (2006) for a discussion of the pros and cons associated with
mandating unbundled downstream access.




                                                     7
2.1 Worksharing under the PRA

       Worksharing was the crowning achievement of postal policy under the PRA. Its

use succeeded in “liberalizing” a large share of postal sector value added and created a

highly innovative competitive industry. The result was enhanced economic efficiency for

both the postal sector and the Postal Service.


       The guiding policy principle of the PRC toward worksharing was the Efficient

Component Pricing Rule (ECPR). Worksharing discounts were set equal to the (unit)

avoided costs of the Postal Service. ECPR decentralizes the minimization of postal

sector end-to-end costs between Postal Service and upstream competitive providers. The

following simple model illustrates the power of ECPR.


       Consider a stylized postal sector in which the Postal Service offers two products:

end-to-end service and workshared mail. The rate charged for end-to-end service is given

by the stamp price p. The Postal Service also offers a discount of  for delivering

workshared mail. Worksharing services are assumed to be provided to mailers by a

perfectly competitive industry. For simplicity, I assume that, as far as consumers are

concerned, mail that is workshared is a perfect substitute for that handled end-to-end by

the Postal Service. Thus, consolidators collect mail from end-to-end consumers and

receive p per piece. After processing it, they hand it over to the Postal Service for

delivery, paying the discounted rate pD = p -  per piece. From consolidators point of

view, the relevant market price is the worksharing discount .




                                              8
        To complete the description of this stylized postal sector, let D(p) denote the total

demand for the end-to-end service as a function of the stamp price p and let S() denote

the competitive supply of consolidators’ upstream services as a function of the

worksharing discount . Thus, end-to-end and workshared volumes carried by the

incumbent are given by D(p) – S() and S(), respectively. Let t and c, respectively,

denote the incumbent’s unit costs of upstream sorting and downstream delivery and let F

denote its fixed costs (from all stages).


        This simple framework suffices to illustrate the efficiency properties of an ECPR

policy for worksharing. The efficiency follows from the well known principle of

optimality for a “multi-plant” industry: the marginal costs of all active producers must be

equated in order for industry costs to be minimized. In competitive equilibrium, the

marginal cost of all active fringe providers is equated to the market price they face: i.e.,

the worksharing discount . Thus, when this discount is set equal to t, the upstream unit

costs of the Postal Service avoided by worksharing, all upstream marginal costs for the

postal sector are equated and upstream sector costs are minimized. Figure 1 illustrates

this situation.




                                              9
                                          $
                                               Efficient firms
                                               excluded at l         S()




                             discount 
                                          h
                                          t
                                          l
                                                              Inefficient firms
                                                              participating at h
                                           0       S(l) S(t) S(h)
                                                   workshared volume


                                                     Figure 1


        The diagram also makes clear the inefficiencies that result when the worksharing

discount is not set equal to the avoided upstream unit cost of the Postal Service. When

the discount is set equal to l < t, the fringe provides too little worksharing: i.e., only S(l)

units. Firms whose unit costs of providing the upstream service component are less than

that of the Postal Service do not fully participate in the market. Similarly, if the discount

is set equal to h > t, the fringe provides too much worksharing: i.e., units of upstream

service that are more costly than those of the Postal Service are drawn into the market.


2.2 “Exclusionary” Access Charges Resulting from the Introduction of Global Price
    Cap Regulation

        To make this issue concrete, consider the potential antitrust implications of the

regulatory changes mandated by PAEA. In an attempt to improve pricing flexibility on

the part of the Postal Service, PAEA mandated that the Postal Regulatory Commission




                                                         10
implement a price cap regime to control the prices of the Postal Service’s market

dominant services. While the details of this price cap regime are still evolving, in its

initial application, the prices of workshared and non-workshared products were treated

symmetrically under the cap.11 The foregoing example can be used to illustrate the

possible “exclusionary” effects of this regulatory policy change.

           As above, the Postal Service provides two market dominant services: an end-to-

end service and a workshared (or “access”) service. In the case of the workshared

service, competitive consolidators provide upstream, sorting functions and the incumbent

provides only delivery. Assume that, initially, the incumbent was regulated to break-

even by cost of service regulation and the worksharing discount was set equal to the

upstream unit costs of the incumbent; i.e., according to the ECPR. Now suppose a price

cap regime is introduced to control the prices of the incumbent and that, as is common,

the price weights are set equal to the actual market quantities in the previous period.

           In terms of the model, let p0 and 0, respectively, denote the stamp price and

worksharing discount established by the regulator before the move to price cap

regulation. Then, the initial quantities of end-to-end and workshared mail are given by

D(p0) – S(0) and S(0), respectively.

           Under these circumstances, the profits of the incumbent postal operator are given

by




11
     That is, the regime is one of “global” price cap regulation. See De Donder et al. (2006) for a discussion.




                                                       11
(1)                 (p,) = (p-t-c)[D(p)-S()] + (p--c)S() – F

The global price cap regulation subjects the incumbent’s choice of stamp price and

workshare discount to the following constraint:

(2)                 p(D0- S0) + (p-)S0 < p0(D0- S0)+(p0-0)S0.

This condition requires that, when evaluated at last period’s volumes, the stamp price and

discount chosen by the incumbent cannot be expected to yield more than last period’s

revenues.12 When the constraint is binding, it can be solved to yield an expression

relating the allowed levels of the stamp price and worksharing discount: i.e.,

(3)                 pc() = p0 + ( –0)(S0/D0)

Equation (3) has the intuitive interpretation that the price cap constraint allows the

incumbent to increase its stamp price only if it also increases its worksharing discount.

           It is now possible to evaluate the incentives facing a firm which has been

subjected to price cap regulation in these circumstances. In order to examine the effects




12
     This is the basic Laspeyres price cap index formula most commonly used in the practice of price cap
regulation. The need for some index formula arises whenever price cap regulation is applied to a group (or
basket) of products. Here, and elsewhere in this paper, I am holding all other prices of the Postal Service
constant. This allows me to express the price cap constraint only as a function of the variables of interest.
Obviously, all the rates of interest can be increased under a price cap as long as the impact is offset by
decreases in other rates. However, under the assumption that other rates are held constant, the relevant
constraint facing the Postal Service is the simple one used here.




                                                      12
on Postal Service profits of a small change in the worksharing discount, substitute

equation (3) into equation (1) and differentiate with respect to  to obtain:

        d [ p c ( ), ]  dp c  [( p c  t  c) D  D]S 0
(4)                                                           (t   ) S   S
              d           p d                D0

Evaluating this expression at  =0 = t and p = p*(t) = p0 yields:

        d [ p c (t ), t ] ( p 0  t  c) D( p 0 ) S (t )
(5)                                                       0
             d                       D( p 0 )

Thus, in this situation, the Postal Service would have a profit incentive to reduce the

worksharing discount below its initial ECPR level.

       Under ECPR (avoided cost) worksharing discounts, all upstream competitors that

were at least as efficient as the incumbent were active in the market. After the change in

regulatory policy, the incumbent would have a profit incentive (and regulatory

“permission”) to exclude some of them. Presumably, this outcome would be of concern

to the competition authorities. That is, even if application of essential facility

considerations does not dictate that there must be an upstream market for competition

policy reasons, once such a market has been created by the regulatory process,

competition policy criteria would apply. Usually, such potential conflicts can be avoided

through adjustments in regulatory policy: e.g., in the present example, one could change

the form of the price cap and/or impose the added constraint that worksharing discounts

satisfy ECPR. However, this just reinforces the point that regulatory policies may

sometimes conflict with competition policy in this important area.




                                                          13
3. QUANTITY DISCOUNTS UNDER PAEA

           Before PAEA, Negotiated Service Agreements (NSAs) involving quantity

discounts were introduced as an opportunity to both increase economic efficiency and

improve Postal Service profits. Despite their theoretical advantages, these contracts were

subject to detailed scrutiny by the PRC. In this Section, I review the theory of quantity

discounts and examine how PAEA can be expected to influence their use. This involves

an analysis of both the post PAEA incentives of the Postal Service to introduce such

discounts as well as its incentives to adjust existing discounts under the pricing flexibility

newly provided by PAEA price cap regulation.


3.1 Quantity Discounts in pre PAEA NSAs

3.1.1 The “Win-Win” Theory of Quantity Discounts

       Over the past few decades, “quantity discounts” implemented through optional tariff

schemes have won increasing acceptance from economists and regulators alike. 13 The

basic intuition is quite simple. The firm offers “large users” a discount on all units

purchased above a certain threshold volume. “Small users” are free to continue to

purchase at the original, undiscounted rate. Clearly, any user that takes advantage of the

discounted rate does so because it perceives itself to be better off. Users that do not take




13
     Both the rigorous theoretical justification and the intuitive motivation were provided in the seminal
contribution of Willig (1978).




                                                        14
advantage of the discount can be no worse off as long as the original rate remains

available. And, finally, the increase in volume increases the firm’s profit as long as the

optional (discounted) rate is above its unit cost.


        The argument can be illustrated using a simple diagram (Figure 2). Assume that

there are two types of users: high demand, type 2 users and low demand, type 1 users.

Their demand curves are given, respectively, by D2(p) and D1(p) < D2(p), where p is the

price of the service. Suppose p0 is the initial uniform price charged to all users. At that

price the initial quantities purchased by large and small users are given by q20  D2 ( p 0 )

and q10  D1 ( p0 ) . Now the firm offers the following quantity discount option: any

consumer who purchases at least q20 units at the base price of p0 can purchase additional

units at the price p* = p0 –  .


        It is easy to see the effects of this offer in Figure 2. Type 1 consumers have no

interest in changing their behavior because their marginal willingness to pay would drop

to zero before they consumed the quantity required to be eligible for the discount. Yet,

these consumers are no worse off because they are free to continue to purchase their

desired quantity at the initial price p0. Type 2 users would expand their purchases to

q2*  D2 ( p* ) , thereby increasing their consumers’ surplus by area abd. As long as the

discounted price is greater than the firm’s marginal cost (c), profits go up by area bdfg.

Offering an optional tariff that includes a quantity discount has resulted in a Pareto

improvement: some market participants (i.e., the firm and large users) are strictly better




                                              15
off and the others (i.e., small users) are no worse off than before the new option was

introduced.



                           $
                        price
                                           D2(p)
                                 D1(p)
                                                a
                           p0
                           p*               b       d
                           c                        e
                                             g f


                             0 q10           q20 q2* quantity


                                         Figure 2




3.1.2 Factors resulting in PRC scrutiny of quantity discounts in pre-PAEA NSAs

       If quantity discounts can lead to a Pareto improvement, why were NSAs so

closely scrutinized by the PRC? There were basically two areas of concern: (1) the

impact on Postal Service profits; and (2) fairness to other Postal Service customers. First,

if the Postal Service were to make “money losing” deals with large customers, general

mailers would be adversely affected under break-even regulation. Second, unlike in the

example above, customer demand curves may be interdependent because Postal Service

customers are primarily businesses. Hence, a true Pareto improvement may not be




                                             16
possible due to feedback effects between “favored” customers and their competitors who

are not eligible for the discount.14


           The first concern received considerable attention because, under the PRA

regulatory regime, there was little reason to suppose that the Postal Service was a profit

maximizing entity – for the simple reason that there was no mechanism for the Postal

Service to retain (let alone distribute) any profits it might earn. Also, any deficits

resulting from loss-making NSAs would be recovered from the overall revenue

requirement.15


           The PRC was open to the second concern but, to the best of my knowledge, no

complaining competitors came forward. Of course, given the Postal Service’s antitrust

immunity at the time, the PRC was the only forum available. Under PAEA, such

“damaged competitors” are eligible to file suits under the secondary line injury

provisions of the Robinson Patman Act.




14
     See Ordover and Panzar (1980) and (1982) for theoretical analyses of this situation. For a discussion of
these concerns in the context of postal NSAs, see US Postal Rate Commission, Docket MC2002-2,
Testimony of John C. Panzar (JCP-T-1) (2003).

15
     See Panzar and Sidak (2006) for an analysis of these and related issues.




                                                       17
3.2 Analysis of Quantity Discount incentives under Price Caps

3.2.1 Quantity Discounts with Independent Demands

           I begin by analyzing the incentives of the Postal Service to introduce quantity

discounts when subject to PAEA-style price cap regulation. Again, I consider a simple

model with Type 1 and Type 2 users, as above. At the initial price, p = p0, base volume

for the service in question is B0 = D1(p0) + D2(p0). Initially, the discounted service was

not offered, so the base discounted volume is given by V0 = 0. Assuming that all other

prices are held constant, the price cap constraint facing the Postal Service is given by pB0

< p0B0 or p < p0. Thus, under PAEA, other customers are automatically protected by

price cap. This is true even regardless of whether or not the Postal Service can be

assumed to be a profit-seeking enterprise. Thus, one of the primary concerns regarding

quantity discounts has been mitigated by PAEA price caps.


           Therefore, the introduction of quantity discounts under a price cap constraint

results in a contribution maximizing Postal Service producing a Pareto Improvement. 16

The problem is both simpler and more complicated than was illustrated in Figure 2.

There, it was demonstrated that any discount  > 0 was guaranteed to lead to a Pareto

improvement as long the quantity threshold Q required to obtain the discount was set




16
     At least for the case of independent customer demands. See below for an analysis of the issues that arise
in the case of interdependent demands.




                                                       18
equal to D2(p0), the large user’s demand at the initial price. One could then proceed to

calculate the contribution maximizing discount, holding Q fixed. However, it turns out

that the Postal Service and the large user can always negotiate a better deal if they are

allowed to choose Q as well.


       Figure 2 can be used to illustrate the argument. At the initial uniform rate of p0,

there are “unexploited gains from trade” between the Postal Service and the Type 2 user.

All of the points between a and e along demand curve D2 represent units of output for

which the Type 2 user’s valuation of the unit (willingness to pay) exceeds c, the marginal

cost of producing the unit. The total amount of initial unexploited gains from trade is

given by the area of the deadweight loss triangle aeg. Notice that a deadweight loss

equal to area def persists even after quantity discounts are introduced at the discounted

rate p* for purchases greater than the threshold D2(p0). From the diagram, it is clear that

such deadweight loss triangles can only be eliminated if the discounted rate is set equal to

marginal cost: i.e., when p* = c.


       Therefore, it seems reasonable to assume that, when fully informed, the Postal

Service and the large user would choose to negotiate terms which would make the

discounted rate equal to marginal cost. Of course the problem with that result is that, if

the discount threshold were left at D2(p0), all the gains from eliminating the deadweight

loss would accrue to the large mailer. However, in principle, it is a simple matter to

remedy the situation by increase the threshold level beyond D2(p0). Indeed, the threshold




                                             19
level determines the amount of a “lump sum,” infra marginal transfer between the large

user and the Postal Service. The magnitude of the transfer is given by (p0 – c)Q. Thus,

the size of the threshold determines the division between the Postal Service and the large

user of the gains from trade resulting from the introduction of negotiated quantity

discounts.17


           Of course price cap regulation continues to apply after a quantity discount is in

place. Changes in the basic rate, threshold and discounts level must continue to satisfy

the cap. Therefore, it is of interest to analyze the incentives facing the Postal Service

once an initial system of quantity discounts in place. Somewhat surprisingly, whenever

the initial discount is negotiated optimally, the Postal Service would not have an

incentive to alter either the basic rate or the discount when permitted to adjust its prices

under the price cap formula. From a theoretical point of view, this is because the

negotiated threshold level (and total Postal Service revenues) will generally be an

increasing function of the basic rate.18 More practically, the PRC has specified a special

treatment for revenues associated with discounted volumes under NSAs:




17
     This explains why the specification of the threshold level is so controversial in NSAs. In practice, the
issue is further complicated by the difficulty of forecasting future demands with and without the quantity
discount.

18
     As is clear from Figure 2, the higher p0, the higher are the gains from trade resulting from a negotiated
quantity discount. This tends to also increase Postal Service’s portion of those gains. While raising the




                                                        20
             “Mail volumes sent at rates under negotiated service agreements are to be
             included in the calculation of percentage change in rates as though they paid
             the appropriate rates of general applicability.” DOCKET NO. MC2007-1, §
             3010.24(a).

The impact of this rule is to restrict the revenue changes associated with discounts in

place to those resulting from basic rate reductions. In terms of our example the effective

price/revenue cap constraint becomes p0(B0+V0) > p(B0+V0), or p0 > p. Thus, regardless

of theoretical incentives, PRC price cap rules prevent the use of negotiated quantity

discounts from later leading to an increase in the basic rate, ceteris paribus.


3.2.2 Quantity Discounts with Interdependent Demands

         As discussed above, the analysis becomes considerably more complicated when

the demand curves of Postal Service customers are interdependent because, for example,

they are business firms that compete with one another in the same final product market.

Since roughly 90% of Postal Service volume is generated by business mailers, this is a

very relevant case.


         I seek to analyze this situation using the simplest possible model. First, I assume

that all customers require one unit of postal services to produce one unit of their final




basic price would tend to increase contribution, the offsetting reduction in the threshold required under the
price/revenue cap would typically more than offset the gain.




                                                     21
output, so that postal volumes and industry output are commeasurable. Second, I assume

that the downstream, final output market is perfectly competitive with a demand curve

D(r) that is a decreasing function of the industry output price, r. These assumptions

allow me to characterize firm behavior in terms of their output supply functions.

Furthermore, firms’ output supply functions are exactly equal to their demand functions

for postal services and both depend only on the effective net price, r – p, faced by the

firms.


         I assume that there are two types of business customers: a large number of Type 1

customers, whose aggregate output supply (and postal services demand) curve is given by

S1(r–p); and a single (large) Type 2 customer whose output supply/postal demand curve

is given by S2(r–p–), where  denotes any quantity discount the large purchaser may

receive. As a result, competitive equilibrium in the output market is determined by:


(7)      S1(re–p) + S2(re–p+) = D(re)


Equation (7) implicitly determines the equilibrium output price as a function of the basic

rate and quantity discount: i.e., re = re(p,). As one would expect intuitively, it is shown

in the Appendix that the equilibrium output price is an increasing function of the base

price and a decreasing function of the quantity discount.


         The analysis of quantity discounts when customer demands are interdependent is

somewhat complex. (The Appendix presents a detailed analysis of the incentives facing




                                             22
the Postal Service in such situations.) However, I shall attempt to illustrate the issues that

arise using Figure 3. Let us begin by supposing that, as above, the Postal Service is

initially charging a uniform basic rate of p0 to both types of users. This results in a

competitive output price of r0 = re(p0,0). At this combination of postal price and output

price, Type 1 firms purchase the quantity q10 of postal services (and supply the same

amount of final output to the market). In the diagram, this quantity is determined by the

intersection of the Type 1 demand curve for postal services, S1(r0–p0), with the basic

postal rate.19

                                    $
                            price




                                    g
                                                   S1(r0–p0)
                                    f S1(r1–p0)
                                    p0 a                       b

                                    c                          e
                                             d

                                        0   q1 1           q1 0          quantity


                                                     Figure 3




19
     In general, the (derived) demand of competitive firms for any input will depend on both the input price
and the market price for their output: e.g., D1(p,r). Because I have assumed that one unit of postal services
is required for each unit of firm output, the input demand function and output supply functions are equal
and depend only upon the price difference: i.e., D1(p,r) = S1(r0–p0).




                                                          23
        Next, suppose that the Postal Service negotiates a quantity discount arrangement

with the large user, involving a quantity discount of  for each unit purchased in excess

of some specified threshold. In the independent demands case, this deal resulted in gains

for both the Postal Service and the large user and, by hypothesis, small users were

completely unaffected as long as the basic rate remained unchanged. However, in the

current situation, the discount offered to the large user would cause him to increase not

only his purchases of postal services, but also the quantity he supplies to the downstream

output market. As a result, the equilibrium output price would fall to r1 = re(p0,) < r0.

This would shift the postal service demand curve for Type 1 customers to the left (i.e., to

S1(r1–p1)), resulting in the smaller quantity, q11, being purchased at the initial basic rate of

p0 .


        There are two results of this “feedback effect.” First, the profits of the Postal

Service are reduced because of the reduction in high mark-up sales to Type 1 users. This

amount is given by area abde in Figure 3. Second, Type 1 customers are clearly

damaged. Since I have assumed that these are competitive firms, the effect on their

profits can be measured by changes in the surplus area under their input demand curves.

Thus, the decrease in the profits of Type 1 firms resulting from a fall in the equilibrium

output price is given by the area gbaf in Figure 3. In the case of independent demands,

the Postal Service and the large user could negotiate a mutually beneficial quantity

discount package without any impact on the non favored users. Here, the situation is




                                              24
very different: the terms of the NSA will affect both the Postal Service profits and the

welfare of non participating users even if the basic rate is unchanged.


            These complications do not eliminate the incentives for the Postal Service and

large users to negotiate mutually beneficial quantity discount arrangements. Indeed the

Appendix demonstrates that (1) there always exist incentives to introduce such quantity

discounts; (2) the optimal discount will involve a discounted rate greater than marginal

cost; and (3) introducing the discount will increase total surplus. 20 However, the

presence of demand interdependencies dramatically changes the distributional effects of

the NSA. Instead of being a Win-Win arrangement solely between the Postal Service and

a large customer, the NSAs benefit the parties to the agreement at least partially at the

expense of other mailers. Furthermore this “damage to competitors” may occur even if

the basic rate remains unchanged. Thus the protection afforded to general mailers by the

PRC’s interpretation of PAEA price cap rules is not sufficient to protect the competitors

of favored customers.




20
     The intuition behind these results is straightforward. The first result is due to the fact that the direct
(“first order”) effect from introducing the discount (shown in Figure 2) always outweighs the indirect
(“second order”) effect on Postal Service profits (shown in Figure 3) when the discount is close to zero.
The optimal negotiated discount is greater than marginal cost because the direct effect of further rate
reductions approaches zero as the discounted rate approaches marginal cost, while the negative feedback
effect on Postal Service profits remains “large.” Therefore, balancing the two effects occurs at a  > p–c.
Total surplus in the market goes up the expansion of total of final output benefits ultimate consumers more
than it hurts Type 1 producers.




                                                          25
           It was this type of secondary line injury resulting from quantity discounts that the

Robinson Patman Act was passed to prevent. Since PAEA subjects the Postal Service to

the antitrust statutes, competitors of firms that receive quantity discounts through NSAs

may seek damages.21 Economists have always taken a dim view of the Robinson Patman

Act, and the government rarely initiates cases nowadays. 22 However, private parties

continue to bring actions under the Act.


4. CHANNEL BASED DISCOUNTS

           Selling stamps at a post office window is costly. Other distribution channels

(online sales, postal meters, etc.) may involve significant cost savings. Thus, for many

postal services, contribution can probably be increased by giving consumers incentives to

utilize alternative distribution channels. Channel based discounts may facilitate this. In

this section I examine the implications that price cap regulation under PAEA may hold

for such a strategy. I begin by analyzing the incentives to introduce channel based

discounts under the pricing flexibility permitted by PAEA price cap regulation.




21
     The classic case involving secondary line injury is Federal Trade Commission v. Morton Salt Co. 334
U.S. 37 (1948).

22
     For a discussion of the economic issues involved in the Robinson Patman Act, see Viscusi, et. al.,
Chapter 9.




                                                       26
4.1 A Simple Model of Alternative Distribution Channels

       I assume that the Postal Services uses two distribution channels for selling

postage. A number of stamps W are sold “at the window” at the price p. A number of

stamps I are sold over the Internet at a price pI = p-, where  is the amount of any

channel discount Let c and cI denote the unit cost of window and Internet distribution,

respectively. Let  = c – cI denote the difference in channel unit costs.


       Window and Internet sales of stamps are obviously close substitutes. However,

given differences in consumers’ access to the Internet and other characteristics, they are

probably not perfect substitutes. That is, a small difference in price will not eliminate the

demand for the more expensive channel. Therefore, I assume that the market demand

functions are given by W = W(p,pI) and I = I(pI,p), with each demand function being a

decreasing function of its own price and an increasing function of the price of the

alternative distribution channel. In addition, the following assumptions are plausible for

demands of close substitutes: (i) An increase in the price of either product does not

increase total demand; and (ii) An equal increase in the price of both products decreases

the demand of each. Letting subscripts denote partial differentiation, these assumptions

imply WI + II < 0; WW + IW < 0; WI + WW < 0; and II + IW < 0.


       The contribution that the Postal Service earns from the service in question is

given by:


(8)    (p,pI) = (p,) = (p-c)W(p,p-) + (p--cI)I(p,p-) = (p-c)(W+I) + (-)I




                                             27
4.2 Analysis of Channel Discount Example

       In the initial situation without any channel discount, we have W0 = W(p0,p0) and

I0 = I(p0,p0). (I allow for the possibility that the low cost channel may already be in

existence and utilized without any discount.) Under the flexibility provided by price cap

regulation, the Postal Service may have the incentive to introduce a channel discount

where none existed before. For any specified levels (p0,0) of base price and channel

discount, the Laspeyres price cap constraint on the next period base price and discount

would be given by


(9)    p0W0 + (p0–0)I0 > pW0 + (p –)I0


When the price cap constraint is binding, solving equation (9) yields the following

formula for the constraint on the base price as a function of the channel discount:


(10)   pc() = p0 + (–0)I0/(W0+I0) = p0 + ( –0)sI0


Introducing a discount creates “slack” to raise basic rate.


       Is there an incentive to introduce discount (and raise basic rate)? To answer this

question, I proceed by examining the impact on Postal Service contribution from

introducing a “small” channel discount, taking into account the effect of the price cap

constraint. To begin, substitute equation (10) into equation (8) in order to define the level

of Postal Service contribution as a function of a single variable, the channel discount:




                                             28
(11)    ( )   ( p c ( ), )  ( p c  c)[W ( p c , p c   )  I ( p c   , p c )]  (   ) I ( p c   , p c )

       Differentiating equation (11) with respect to the discount yields


(12)                                                                                      
        ( )  W  I  ( p c  c)[WI  WW  I I  IW ]  (   )[I I  IW ] sI0  I  (   ) I I


Upon rearrangement, equation (12) can be rewritten as


                  (W  I ) I 0       ( p c  c)[WI  WW  I I  IW ]  (   )[I I  IW ]I 0 
        ( )   0        0
                                 I                                                             (   ) I I
                  (W  I )                               (W 0  I 0 )                         



In order to determine the effect on contribution of introducing a channel based discount

under the price cap, evaluate the above expression at  =0 = 0 (which also implies that

pc() = p0, I = I0 and W = W0):


(13)    (0)  ( p 0  c)[WI  WW  I I  IW ]sI0  [ IW sI0  I I (1  sI0 )]


       The derivative in equation (13) cannot be signed in general. The second term is

unambiguously positive when  is positive. However, the bracketed portion of the first

term measures the effect on total demand of a simultaneous increase in both prices. It has

been assumed to be non positive, and is likely to be somewhat negative.


       Nonetheless, the result in equation (13) does provide several important insights.

First, it implies that the Postal Service always has the incentive to introduce a cost based,

channel discount for a new, previously unavailable distribution channel. In that case, said




                                                           29
channel’s base period share is zero by definition and the first term in equation (13)

vanishes. This leaves only the unambiguously positive final term, –II. Second, the

equation makes clear that the incentive to introduce a channel based discount is larger

(and more likely to be positive), the larger is , the cost advantage of the Internet

channel. Indeed, if the new channel is more expensive, the sign of the derivative in (13)

is unambiguously negative, and the Postal Service will have a clear incentive to charge a

premium price for that channel.


        Finally, suppose that the total demand for the service is essentially price inelastic.

Consumers switch between distribution channels based upon price differences, but the

total number of stamps purchased is relatively fixed. Under this plausible assumption,

there is also an incentive for the Postal Service to introduce a small channel discount.

For, in that case, the price effects in the first bracketed term will be very close to zero,

and the positive second term will determine the direction of the incentive.


        To sum up these results, channel based discounts are likely to be attractive the

Postal Service under PAEA price cap regulation. However, their introduction is likely to

produce both winners and losers among customers. To the extent that the losers can

allege that they are the victims of some form of “price discrimination,” there may be

antitrust consequences.




                                              30
5. CONCLUDING REMARKS

       This paper has analyzed the incentives of the Postal Service to introduce or

modify various types of discounts under the pricing flexibility permitted under PAEA

price cap regulation. Under PAEA, antitrust liability goes hand in hand with pricing

flexibility. Therefore, I have also discussed potential antitrust implications associated

with Postal Service discount policy. In this Section I briefly review the findings of my

analysis.


       (1) Worksharing Discounts. Worksharing discounts have been the hallmark of

postal sector liberalization policy in the United States. Under the PRA, PRC regulatory

policy attempted to set worksharing discounts equal to the unit costs avoided by the

Postal Service for the service component in question. The introduction of PAEA price

cap regulation gives the Postal Service the flexibility to simultaneously adjust both the

discount and the end-to-end service rate. My analysis shows that, starting at a discount

level equal to unit avoided cost, the Postal Service will tend to have an incentive to

decrease both the worksharing discount and the basic rate. This would have the effect of

reducing the market share of upstream competitors. In antitrust parlance, the effect of the

reduction in the worksharing discount would be to “exclude equally or more efficient

competitors.” Nonetheless, my analysis shows that the reduction in discounts are likely

to be welfare increasing.




                                             31
       (2) Quantity Discounts. In recent years, quantity discounts have featured

prominently in NSAs between the Postal Service and large mailers. Despite their

theoretical and practical appeal, these agreements have been closely scrutinized by the

PRC. The impact of PAEA price cap regulation should alleviate the concern that the

general mailing public may be adversely affected by such negotiated agreements because

of suboptimal or myopic actions of the Postal Service, for the simple reason that the price

cap constraint prevents an increase in the basic rate. However, when consumer demand

curves are interdependent, users that are competitors of the large mailers will be

disadvantaged, even if the basic rate they pay is unchanged. Such competitors may seek

to claim compensation under the secondary line injury provisions Robinson Patman Act,

which prohibits quantity discounts where the effect is to damage competition in the

output market of the favored customer. Nonetheless, quantity discounts have an

important role to play under PAEA price cap regulation. While they may not lead to a

Pareto improvement, my analysis shows that their introduction is beneficial to the Postal

Service and lead to an increase in total surplus.


       (3) Channel Based Discounts. The cost to the Postal Service of providing a

service or service component may vary depending upon the distribution channel used to

market the service to the public. My analysis finds that the pricing flexibility provided by

PAEA price cap regulation is likely to give the Postal Service the incentive to introduce

channel based pricing to better exploit such cost difference. The incentive to introduce a

channel based discount is greater when the channel (i) has a smaller pre discount market




                                             32
share; (ii) exhibits a greater cost advantage; or (iii) the total demand for the service is

relatively price inelastic. In addition, the analysis shows that, if introduced, such

discounts tend to be welfare improving.




                                              33
                                      References


Bradley, M., Colvin, J. and Perkins, M. (2008) “An Economic Model of the Regulatory
Structure Created by the Postal Accountability and Enhancement Act of 2006,” in M.
Crew, P. Kleindorfer and J. Campbell (eds.) Handbook of Worldwide Postal Reform,
Edward Elger 2008.

Bradley, M., Colvin, J. and Perkins, M. (2007) “Measuring Scale and Scope Economies
with a Strutural Model of Postal Delivery,” in M. Crew and P. Kleindorfer (eds.)
Liberalization of the Postal and Delivery Sector, Edward Elger 2007.

Bradley, M., Colvin, J. and Perkins, M. (2004) “Testing for Anti-Competitive Behavior
in Public Enterprises,” in M. Crew and P. Kleindorfer (eds.) Competitive Transformation
of the Postal and Delivery Sector, Springer 2004.

Brennan, Timothy J (2008), “Essential Facilities and Trinko: Should Antitrust and
Regulation Be Combined?” Federal Communications Law Journal; Dec 2008; 61, 1; pg.
133.

Cazals, Catherine, Jean-Pierre Florens, and Soterios Soteri. "Delivery Costs for Postal
Services in the UK: Some Results on Scale Economies with Panel Data." In Regulatory
and Economic Challenges in the Postal and Delivery Sector, edited by Michael A. Crew
and Paul R. Kleindorfer. Boston, MA: Kluwer Academic Publishers., 2005.

Cazals, Catherine, Marc De Rycke, Jean-Pierre Florens, and Séverine Rouzard. "Scale
Economies and Natural Monopoly in Postal Delivery: Comparison between Parametric
and Non Parametric Specifications." In Managing Change in the Postal and Delivery
Industries, edited by Michael A. Crew and Paul R. Kleindorfer. Boston, MA: Kluwer
Academic Publishers., 1997.

Cohen, Robert H., and Edward H. Chu. (1997) "A Measure of Scale Economies for
Postal Systems." In Managing Change in the Postal and Delivery Industries, edited by
Michael A. Crew and Paul R. Kleindorfer. Boston, MA: Kluwer Academic Publishers.,
1997.

Cohen, R. H., W. W. Ferguson, J. D. Waller and S. S. Xenakis. (2002). “Impacts of
Using Worksharing to Liberalise a Postal Market.” In Liberalisation of Postal Markets,
edited by Gabrielle Kulenkampff and Hilke Smit. Bad Honnef: WIK.

Cohen, Robert H., Matthew H. Robinson, John D. Waller, and Spyros S. Xenakis.
"Worksharing: How Much Productive Efficiency, at What Cost and at What Price?"." In




                                           34
Progress toward Liberalization of the Postal and Delivery Sector, edited by Michael A.
Crew and Paul R. Kleindorfer. New York: Springer, 2006.

de Bijl, P., van Damme, E. and Larouche, P. (2006). “Regulating Access to Stimulate
Competition in Postal Markets?” In: Progress Toward Liberalization of the Postal and
Delivery Sector, edited by M. A. Crew and Paul. R. Kleindorfer, New York, Springer.

De Donder, Phillippe, Helmuth Cremer, Paul Dudley, and Frank Rodriguez. "Pricing and
Welfare Implications of Alternative Approaches to Setting Price Controls in the Postal
Sector." In Progress toward Liberalization of the Postal and Delivery Sector. New York:
Springer, 2006.

Ordover J. A., Panzar, J. C. "On the Nonexistence of Pareto Superior Outlay Schedules,"
Bell Journal of Economics 11 1, pp. 311-15, Spring 1980.

Ordover, J. A., Panzar, J. C. "On the Nonlinear Pricing of Inputs," International
Economic Review 23 3, pp. 710-26, October 1982.

Panzar, J. C. (2002) “Reconciling Competition, Downstream Access, and Universal
Service in Postal Markets.” In: Postal and Delivery Services: Delivering on Competition,
edited by M. A. Crew and Paul. R. Kleindorfer, Boston, Kluwer.

Panzar, J. C. (2008) “Interactions between Regulatory and Antitrust Policy in a
Liberalized Postal Sector,” In: Crew, Kleindorfer and Campbell (ed.) Handbook of
Worldwide Postal Reform, Edward Elger 2008..

Panzar, J. C. and Sidak, H. G.(2006) “When Does an Optional Tariff Not Lead to a
Pareto Improvement? Journal of Competition Law and Economics, June 2006.

Sappington, D., and Sidak, J. (2003a) “Incentives for Anticompetitive Behavior by
PublicEnterprises,” Review of Industrial Organization 22: 183–206, 2003.

Sappington, D., and Sidak, J. (2003b) “Competition Law for State-Owned Enterprises,”
71 Antitrust Law Journal No. 2. 2003.

Sidak, J., and Spulber, D.(1996), Protecting Competition from the U.S. Postal Monopoly.
AEI, Washington.

US Federal Trade Commission, Postal Service Study, Project No. PO71200, Declaration
of J. Gregory Sidak. (2007)

US Postal Rate Commission, Docket MC2002-2, Testimony of John C. Panzar (JCP-T-1)
(2003).




                                            35
Viscusi, W., Harrington, J. and Vernon, J. (2005), Economics of Regulation and
Antitrust, (4th Edition) M.I.T. Press Boston 2005.

Willig, Robert D. "Pareto Superior Non Linear Outlay Schedules," Bell Journal of
Economics 9 1, pp. 1-15, Spring 1978.




                                          36
                                              Appendix

SECTION 2: Welfare effects of reducing worksharing discounts below avoided
costs.
         Total surplus, T(p,), is given by the sum of Postal Service profits, consumers’

surplus, and upstream competitors’ profits. In this example, consumers care only about

the price of end to end service: i.e., they are indifferent as to whether it is sorted by the

Postal Service or the competitive fringe. Therefore, consumers’ surplus can be written as

a decreasing function of the end-to-end price, CS(p). As noted in the text, the behavior of

the fringe depends only on the worksharing discount, . Thus their competitive profits

can be expressed as an increasing function of that single argument, f().


         As in the text, solving the price cap constraint defines the increasing function

pc() which expresses the maximum end-to-end price allowed for any worksharing

discount. Substituting this relationship into the expression for total surplus yields:


(A2.1)          T[pc(),] = [ pc(),] + f() + CS[pc()]


Totally differentiating equation (A2.1) with respect to , we obtain


                 dT [ p c ( ),  ]  dp c                          dp c
(A2.2)                                        S ( )  D[ p c ( )]
                       d            p d                           d




                                                   37
(The above expression makes use of the Chain Rule, Hotelling’s Lemma,23 and

Antonelli’s Lemma.24) Substituting in the results from equations (3) and (4) in the text

yields the following formula:


                      dT [ p c ( ),  ] [ p c ( )  t  c]D[ p c ( )]S 0
                                                                             (t   ) S ( )
                            d                            D0


Evaluating this expression at  =0 = t and p = pc(t) = p0 yields the desired result:

                      dT [ p c (t ), t ] [ p0  t  c]D[ p 0 ]S 0
(A2.3)                                                            0.
                           d                       D0

SECTION 3: Quantity discounts with interdependent demands.

           I begin by using comparative statics analysis to determine the effects of changes

in the basic rate and quantity discount on the equilibrium price in the downstream

industry. Differentiating equation (7) in the text with respect to the base price yields:

                           r e              r e             r e                        r e   S1  S 2
(A3.1)               S1         S1  S 2       S 2  D                      1                      0
                           p                p               p                          p S1  S 2  D

Similarly, differentiating with respect to the quantity discount yields:

                           r e        r e             r e                              r e     S 2
(A3.2)               S1         S 2       S 2  D                             0                      1 .
                                                                                     S1  S 2  D




23
     The derivative of the profits of a competitive industry with respect to price is equal to the quantity
supplied.

24
     The derivate of consumers’ surplus with respect to price is equal to the negative of the quantity
demanded.




                                                               38
Thus, any increase in the discount offered the large firm results in a lower market price

facing all firms. This has the effect of shifting the Type 1 customers postal demand

curves to the left.

           Next, I characterize the terms of the “best deal” that the Postal Service could hope

to negotiate with the large user in terms of the basic rate and the quantity discount. This

lump sum payment,25 e(p,), can be no larger than difference in the (maximized) profits

the large firm can earn with and without the discount. That is,

(A3.3)               e( p,  )   2 (r e  p   )   2 (r e  p)

Using (A3.3), it is possible to express Postal Service contribution as a function of the

initial basic rate and the negotiated quantity discount rate:

(A3.4)  ( p0 ,  )  ( p0  c)S1 (r e  p 0 )   2 (r e  p 0   )   2 (r e  p 0 )  ( p 0    c)S2 (r e  p 0 )

This is the expression that the Postal Service is assumed to maximize when negotiating a

quantity discount subject to the price cap constraint that the basic rate cannot be

increased.

           Making use of Hotelling’s Lemma, differentiating (A4) with respect to the

quantity discount level  yields:

                              r e       r e           r e                              r e 
                ( p 0  c) S1       S2       1  S 20       S 2  ( p 0    c) S 2       1 .
                                                                                         




25
     As noted earlier, the size of this infra marginal payment can be interpreted as being equal to the threshold
value times the basic rate markup over marginal cost.




                                                            39
Here, S20 denotes the supply/demand function of the large firm evaluated at the Postal

Service’s undiscounted price: i.e., S20 = S2(re–p0). Rearranging, I obtain


(A3.5)
                 
                 
                       
                     ( p 0  c)S1  (S 2  S 20 )
                                                    r e
                                                    
                                                                              r e 
                                                          ( p 0    c)S 2       1 .
                                                                                    

Equation (A3.5) can be used to establish two important results: (R1) The Postal Service

always finds it profitable to introduce a discount; and (R2) The optimal discounted price,

p0– is greater than marginal cost.


         To establish the first result, all that is required is to evaluate the partial derivative

in equation (A5) at  = 0. Rearranging terms using (A2) yields


                                r e                    r e        ( p 0  c) S 2 D
                    ( p  c) S1       ( p 0  c) S 2 
                            0
(A3.6)                                                            1                      0
                    0                                          S1  S 2  D


The second result follows from setting the partial derivative in equation (A5) equal to

zero and solving: i.e.,


                                      ( p                                    r
                                                                                  e
                                             0
                                                  c) S1  ( S 2  S 20 )
                                                                                          ( p 0  c) S1  ( S 2  S 20 )
(A3.7)           ( p 0    c)                                                                                        0
                                                           r e                                  S1  D
                                                     S 2       1
                                                                


         Of course, the competitors of the favored customer (Type 1) users are damaged by

the introduction of a discount. While the price cap prevents the basic rate from changing,

the discount to the large users results in a decrease in the equilibrium output price. This,




                                                               40
in turn, lowers the profits of the Type 1 firms. However, it turns out that total surplus

increases as a result of the introduction of the discount.


         To see this result, note that total surplus associated with this market is the sum of

Postal Service contribution, large firm profits (net of lump sum payment e), small firm

profits, 1(re – p0) and the consumers’ surplus in the downstream market, CS(re). Making

use of equations (A3.3) and (A3.4), we have


                 T ( p 0 ,  )   ( p0 ,  )  1 (r e  p 0 )   2 (r e  p 0 )  CS (r e )


Differentiating with respect to the level of the quantity discount yields


                 dT       r e        r e                r e                   r e 
(A3.8)                 S1       S 20       ( S1  S 2 )         ( S 2  S 20 )        .
                 d                                                         


The derivation of equation (A3.8) makes use of Hotelling’s Lemma, Antonelli’s Lemma,

and the fact that supply equals demand in the final output market.


         All that is required to determine the impact of the introduction of a quantity

discount is to evaluate the above derivative at  = 0. But equation (A3.8) establishes the

result, because I established in equation (A3.6) that the derivative of Postal Service

contribution must be positive when evaluated at  = 0.




                                                           41
SECTION 4: Welfare effects of introducing channel based discounts.

         The approach is the same as that used earlier in this Appendix except that, in this

model, total surplus is just Postal Service contribution plus consumers’ surplus: i.e.,


(A4.1)           T [ p c ( ), ]   [ p c ( ), ]  CS [ p c ( ), p c ( )   ]


Next, I appeal to Antonelli’s Lemma to claim that the derivatives of consumers’ surplus

with respect to p and pI are, respectively, –W(p,pI) and –I(pI,p), the negative of the

quantities demand through each distribution channel. Given this result, we have



(A4.2)
                 dCS
                  d
                             
                       W ( pc , pc   )  I ( pc   , pc )
                                                               dp c
                                                               d
                                                                      
                                                                     I ( p c   , p c )  (W  I ) sI0  I .



Differentiating equation (A4.1) with respect to  and substituting in the results from

equation (A4.2) and equation (12) in the text, yields


                 dT [ p c ( ),  ]
(A4.3)                               ( p c  c)[WI  WW  I I  IW ]s I0  (   )[sI0 IW  (1  sI0 ) I I ]
                       d


         Not surprisingly, equation (A4.3) reveals that, in general, the welfare effect of an

increase in the level of a channel based discount is ambiguous. (As in the text, the first

term is non positive and likely to be negative. The second term is positive whenever the

channel cost savings exceed the proposed discount. However, the welfare results are

both stronger and clearer than the profit incentive results discussed in the text. Note that




                                                           42
equation (A4.3) holds for any level of the proposed channel discount, not just for “small”

levels near zero as was the case for equation (13) in the text.


        Thus equation (A4.3) provides three important insights. First, it implies that total

surplus will always increase when the Postal Service introduces a cost based, channel

discount for a new, previously unavailable distribution channel. In that case, said

channel’s base period share is zero by definition and the first term in equation (A4.3)

vanishes. This leaves only the term, –(– )II, which is unambiguously positive so long

as the proposed discount is no larger than the cost savings. Second, the equation makes

clear that the welfare benefit to introduce a channel based discount is larger (and more

likely to be positive), the larger is , the cost advantage of the Internet channel.


        Finally, suppose that the total demand for the service is essentially price inelastic.

Consumers switch between distribution channels based upon price differences, but the

total number of stamps purchased is relatively fixed. Under this plausible assumption,

welfare increases whenever the Postal Service chooses to introduce a channel discount no

greater than the channel cost savings. For, in that case, the price effects in the first

bracketed term will be very close to zero and the positive second term will determine the

direction of the change in total surplus.




                                              43
